No. 20-1017

In the Supreme Court of the United States
LAWRENCE JOHNSON, PETITIONER
v.
UNITED STATES OF AMERICA
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

MEMORANDUM FOR THE UNITED STATES

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

In the Supreme Court of the United States
No. 20-1017
LAWRENCE JOHNSON, PETITIONER
v.
UNITED STATES OF AMERICA
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

MEMORANDUM FOR THE UNITED STATES

1. Petitioner contends (Pet. 19-20) that the court of
appeals erred in rejecting his claim that Rehaif v.
United States, 139 S. Ct. 2191 (2019), entitled him to vacatur of his conviction under 18 U.S.C. 922(g)(1) and
924(a)(2) on plain-error review following trial and sentencing. On January 8, 2021, this Court granted the petition for a writ of certiorari in Greer v. United States,
No. 19-8709 (oral argument scheduled for Apr. 20,
2021), to consider the application of plain-error review
in such circumstances. Because the Court’s decision in
Greer may affect the proper disposition of the petition
for a writ of certiorari, the petition in this case should
be held pending the decision in Greer and then disposed
of as appropriate in light of that decision.
2. Petitioner separately renews his contention (Pet.
7-19) that the district court erred in declining to instruct
the jury on his proposed “innocent transitory possession” defense to the charge of unlawful possession of a
(1)

2
firearm by a felon, in violation of 18 U.S.C. 922(g)(1).
For the reasons explained at pages 6 to 14 of the government’s brief in opposition in Faircloth v. United States,
No. 19-6249 (Jan. 27, 2020) (Gov’t Faircloth Br.), that
contention lacks merit. 1 This Court has also recently
and repeatedly declined to review petitions for writs of
certiorari asserting similar claims. See Becerra v.
United States, No. 20-5341 (Jan. 11, 2021); Vereen v.
United States, 140 S. Ct. 1273 (2020) (No. 19-6405);
Faircloth v. United States, 140 S. Ct. 1273 (2020) (No.
19-6249); see also Gov’t Faircloth Br. at 6 (listing earlier
denials).
The same course is warranted here, particularly because the court of appeals declined “to rule definitively
on the existence of an innocent possession defense to
[Section] 922(g).” Pet. App. 6a. The court instead
stated only that “the defense is not available ‘where the
[defendant’s] possession was not momentary or only for
as long as necessary to deal with a justifying necessity
of some kind.’ ” Ibid. (quoting United States v. Miles,
748 F.3d 485, 490 (2d Cir.) (per curiam), cert. denied,
574 U.S. 936 (2014)). The court then applied that standard and found “no evidentiary basis in this case for an
innocent possession defense,” id. at 7a, where petitioner
purportedly “carr[ied] a gun down the street for purposes of taking it to a police precinct, particularly when
[petitioner] was in possession of a working cell phone
and could have contacted police,” id. at 6a. The court
accordingly found that petitioner was not entitled to an
instruction on the defense, even assuming that another
defendant in other circumstances might be. Id. at 7a.
We have served petitioner with a copy of the government’s brief
in opposition in Faircloth, which is also available from this Court’s
online docket.
1

3
The court of appeals’ explanation accords with the
one circuit that has recognized an innocent-possession
defense to 18 U.S.C. 922(g)(1). In United States v. Mason, 233 F.3d 619 (2001), the D.C. Circuit accepted such
a defense, but required a defendant asserting it to show
that he obtained the firearm innocently and with no illicit purpose; that his possession was “transitory”; and
that he “took adequate measures to rid himself of possession of the firearm as promptly as reasonably possible.” Id. at 624. Because the court of appeals here employed a similar standard when reviewing petitioner’s
invocation of such a defense, its fact-bound determination that the circumstances of petitioner’s case would
not qualify for it, in a non-precedential summary order,
does not squarely implicate any disagreement with Mason. 2 See Pet. App. 6a-7a; see also id. at 14a (determination by district court that petitioner would not have
been entitled to an instruction “even under the Mason

Petitioner incorrectly states (Pet. 8-9) that the First Circuit recognized an innocent-possession defense to a Section 922(g)(1)
charge in United States v. Teemer, 394 F.3d 59, cert. denied, 544
U.S. 1009 (2005). The First Circuit in Teemer actually rejected an
innocent-possession instruction similar to the one petitioner sought
here. See id. at 63 (“The district court was correct not to give this
proposed instruction.”); id. at 64 (“The statute bans possession outright without regard to how great a danger exists of misuse in the
particular case.”). The First Circuit also confirmed in a subsequent
published decision that it had “declined to adopt th[e] innocent possession defense in Teemer.” United States v. Mercado, 412 F.3d
243, 252 (2005). And while that court later recognized the defense
in another context, see United States v. Baird, 712 F.3d 623, 629631 (1st Cir. 2013), it has never done so in a Section 922(g) proceeding.
2

4
version of the innocent possession defense”). Further
review of this issue is accordingly unwarranted. 3
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General

MARCH 2021

The government waives any further response to the petition for
a writ of certiorari unless this Court requests otherwise.
3

